HHS/OIG, Audit -"Review of Administrative Costs and Contract Termination for Nationwide Mutual Insurance Company - October 1, 1998 Through September 30, 2002,"(A-05-03-00094)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Administrative Costs and Contract Termination for Nationwide Mutual Insurance Company - October 1, 1998 Through
September 30, 2002," (A-05-03-00094)
November 9, 2004
Complete
Text of Report is available in PDF format (225 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
During the 4-year audit period, Nationwide claimed administrative costs totaling $144,268,652. Nationwide
could not provide documentation to support costs claimed totaling $5,069,849 for travel, facilities, equipment, materials,
postage, telephone, professional services, miscellaneous costs and sale of assets.  In addition, we are questioning
a total of $1,384,752 for complementary credits, unallowable overhead allocations, and executive compensation.  Finally,
Nationwide claimed costs totaling $1,543,938 on its termination voucher.  We are questioning $41,505 for the portion
of the bonus for one employee in excess of the Centers for Medicare and Medicaid Services approved 30 percent rate.